Office of Material Loss Reviews
Report No. MLR-10-034


Material Loss Review of American United
Bank, Lawrenceville, Georgia




                                   May 2010
                                     Executive Summary

                                     Material Loss Review of American United Bank,
                                     Lawrenceville, Georgia
                                                                                    Report No. MLR-10-034
                                                                                                 May 2010

Why We Did The Audit
On October 23, 2009, the Georgia Department of Banking and Finance (DBF) closed American United
Bank (AUB), Lawrenceville, Georgia and named the FDIC as receiver. On November 6, 2009, the FDIC
notified the Office of Inspector General (OIG) that AUB’s total assets at closing were $113.9 million and
the estimated material loss to the Deposit Insurance Fund (DIF) was $43.8 million. As of December 31,
2009, the loss had increased to $45.2 million. As required by section 38(k) of the Federal Deposit
Insurance (FDI) Act, the OIG conducted a material loss review of the failure of AUB.

The audit objectives were to (1) determine the causes of AUB’s failure and the resulting material loss to
the DIF and (2) evaluate the FDIC’s supervision of AUB, including the FDIC’s implementation of the
Prompt Corrective Action (PCA) provisions of section 38.


Background
AUB opened for business on December 20, 2004 as a state nonmember bank regulated by the FDIC and
the DBF. AUB operated a single office in Lawrenceville, Georgia, located about 25 miles north of
Atlanta, Georgia. AUB pursued a traditional business plan and engaged principally in commercial real
estate (CRE) and acquisition, development, and construction (ADC) lending that consisted of residential
and commercial ADC and hotel/motel lending. In addition, AUB purchased and sold CRE and ADC
participation loans. The bank’s lending programs also included loans originated under the U.S. Small
Business Administration guarantee programs.

Although AUB did not have any brokered deposits, the bank used high-priced time deposits and Federal
Home Loan Bank borrowings as non-core funding sources. AUB was wholly-owned by American United
Bancorp, Inc., a non-complex one-bank holding company. The bank’s Board controlled 22 percent of
holding company shares.


Audit Results
Causes of Failure and Material Loss

AUB failed primarily because the Board and bank management did not effectively oversee the bank’s
operations, particularly, by failing to ensure there were adequate risk management controls over CRE and
ADC lending activities. The institution grew rapidly after opening and quickly developed CRE and ADC
concentrations. As a result of inadequate controls and declining economic and real estate market
conditions, the quality of AUB’s loan portfolio and the bank’s financial condition began to deteriorate in
2007. The bank’s condition steadily declined until June 2009, when examiners determined it to be
critically deficient. The associated losses and provisions depleted AUB’s earnings and capital.
Ultimately, AUB’s capital position became Critically Undercapitalized, resulting in an insolvent
institution. AUB was closed due to the overall deterioration in the bank’s financial condition, including
its loan portfolio, earnings, and capital.




                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of American United Bank,
                                      Lawrenceville, Georgia
                                                                                      Report No. MLR-10-034
                                                                                                   May 2010

The FDIC’s Supervision of AUB

From February 2005 until the bank failed in October 2009, the FDIC, in conjunction with the DBF,
provided ongoing supervision of AUB through five onsite risk management examinations and four
visitations. During the de novo period, examiners generally concluded that AUB’s overall financial
condition was sound and management’s performance and oversight was satisfactory. However, the
DBF’s February 2009 visitation identified significant deterioration in AUB’s financial condition, which
examiners determined had become more pronounced at the time of the joint June 2009 examination.
Through their supervisory efforts, the FDIC and the DBF identified and brought key risks to the attention
of the bank’s Board and management, including the concerns regarding AUB’s Board and management
oversight, high levels of CRE and ADC concentrations, and associated weak risk management practices.

The FDIC and the DBF initiated enforcement actions in 2009 to address risk management deficiencies
and AUB’s deteriorating financial condition. Although the FDIC and the DBF closely monitored AUB,
and the FDIC downgraded certain component ratings at the October 2007 examination, an additional
rating downgrade and supervisory actions may have been warranted. Specifically, given the deficiencies
and risks identified at the 2007 examination, it may have been prudent for the FDIC to downgrade AUB’s
management rating and/or include provisions to address management and asset quality in the supervisory
action taken at that time, in light of the bank’s level of asset concentrations. In addition, supervisory
action may have been prudent when offsite monitoring indicated increasing risk at AUB after the October
2007 examination and before the DBF’s February 2009 visitation.

With respect to issues discussed in this report, the FDIC has issued guidance that reemphasizes managing
risks associated with CRE and ADC concentrations and de novo institutions, as well as addresses
communicating and following up on identified risks and deficiencies. The FDIC also implemented an
examiner training initiative that emphasizes the need to assess a bank’s risk profile using forward-looking
supervision. The training, among other things, addressed the need for examiners to consider management
practices as well as the bank’s financial performance or trends in assigning ratings as allowable under
existing examination guidance.

With respect to PCA, we concluded that the FDIC had properly implemented applicable PCA provisions
of section 38 based on the supervisory actions taken for AUB.

Management Response

After we issued our draft report, we met with management officials to further discuss our results.
Management provided additional information for our consideration, and we revised our report to reflect
this information, as appropriate. On May 5, 2010, the Director, Division of Supervision and Consumer
Protection (DSC), provided a written response to the draft report. That response is provided in its entirety
as Appendix 4 of this report.

In its response, DSC reiterated the OIG’s conclusions regarding the causes of AUB’s failure. With
respect to our assessment of supervision, DSC noted AUB’s significant growth between 2006 and 2008
and stated that examiners identified key risks including inadequate Board and management oversight, the
bank’s high CRE and ADC concentrations, and associated weak risk management practices. In addition,
DSC stated that the AUB Board entered into an Memorandum of Understanding with the FDIC and the




                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of American United Bank,
                                      Lawrenceville, Georgia
                                                                                       Report No. MLR-10-034
                                                                                                    May 2010

DBF to address weaknesses identified at the February 2009 visitation and that the FDIC and DBF took
action through a formal Cease and Desist Order when AUB’s management and Board were unable to
sufficiently address the cited problems.

Regarding de novo institutions, DSC stated that the supervisory program for these banks has been
extended so that these institutions receive a full-scope examination every year for 7 years, as opposed to
3 years. In addition, DSC stated that business plans are receiving careful analysis prior to an institution’s
opening and are being closely monitored against approved financial projections throughout the 7-year
period. Further, DSC stated that a Financial Institution letter issued in August 2009 describes the
program changes for de novo institutions and warns that changes to business plans undertaken without
required prior notice may subject institutions or their insiders to civil money penalties.




                                  To view the full report, go to www.fdicig.gov
                                Contents
                                                                           Page
Background                                                                   2

Causes of Failure and Material Loss                                          2
 Board and Management Oversight                                              3
 CRE and ADC Lending Strategy, Including Participation Loans                 6
 Credit Risk Management Practices                                            9
 Allowance for Loan and Lease Losses and Adversely Classified Items         10

The FDIC’s Supervision of AUB                                               11
 Supervisory History                                                        12
 Supervisory Response to Board and Management Oversight                     14
 Supervisory Response to CRE and ADC Concentrations, Including              15
    Participation Loans
 Supervisory Response to Offsite Monitoring Findings                        18
 Supervisory Response to Credit Risk Management Practices                   19
 Implementation of PCA                                                      20

Corporation Comments                                                        22

Appendices 
 1. Objectives, Scope, and Methodology                                      23
 2. Glossary of Terms                                                       25
 3. Acronyms                                                                27
 4. Corporation Comments                                                    28

Tables
 1. Selected Financial Information for AUB                                   2
 2. AUB’s Projected and Actual Levels for Real Estate-Related Loans          5
 3. AUB’s CRE and ADC Concentrations as a Percentage of Total Capital        8
 4. AUB’s Adversely Classified Items and ALLL by Examination and            11
       Visitation Dates
 5. AUB’s Supervisory History from 2005 to 2009                             12
 6. AUB’s Offsite Monitoring Results for Select 2008 Call Report Periods    18
 7. AUB’s Capital Ratios Relative to PCA Thresholds for Well Capitalized    21
       Banks

Figure
    Composition and Growth of AUB’s Loan Portfolio                           6
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General


DATE:                                           May 6, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection

                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Material Loss Review of American United Bank,
                                                Lawrenceville, Georgia (Report No. MLR-10-034)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of American
United Bank (AUB), Lawrenceville, Georgia. The Georgia Department of Banking and
Finance (DBF) closed the institution on October 23, 2009, and named the FDIC as
receiver. On November 6, 2009, the FDIC notified the OIG that AUB’s total assets at
closing were $113.9 million and the estimated material loss to the Deposit Insurance
Fund (DIF) was $43.8 million. As of December 31, 2009, the loss had increased to
$45.2 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives were to (1) determine the causes of AUB’s failure and the resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision2 of AUB, including the
FDIC’s implementation of the PCA provisions of section 38 of the FDI Act. This report
presents our analysis of AUB’s failure and the FDIC’s efforts to ensure that AUB’s
Board of Directors (Board) and management operated the institution in a safe and sound



1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
manner. The report does not contain formal recommendations. Instead, as major causes,
trends, and common characteristics of financial institution failures are identified in our
material loss reviews, we will communicate those to management for its consideration.
As resources allow, we may also conduct more in-depth reviews of specific aspects of
DSC’s supervision program and make recommendations, as warranted. Appendix 1
contains details on our objectives, scope, and methodology. Appendix 2 contains a
glossary of key terms and Appendix 3 contains a list of acronyms. Appendix 4 contains
the Corporation’s comments on this report.

Background
AUB opened for business on December 20, 2004 as a state nonmember bank regulated by
the FDIC and the DBF. AUB operated a single office in Lawrenceville, Georgia, located
about 25 miles north of Atlanta, Georgia. AUB pursued a traditional business plan and
engaged principally in commercial real estate (CRE) and acquisition, development, and
construction (ADC) lending that consisted of residential and commercial ADC and
hotel/motel lending. In addition, AUB purchased and sold CRE and ADC participation
loans.3 The bank’s lending programs also included loans originated under the U.S. Small
Business Administration guarantee programs.

Although AUB did not have any brokered deposits, the bank used high-priced time
deposits and Federal Home Loan Bank borrowings as non-core funding sources. AUB
was wholly-owned by American United Bancorp, Inc., a non-complex one-bank holding
company. The bank’s Board controlled 22 percent of holding company shares.

Table 1 summarizes selected elements of AUB’s financial condition for the quarter
ending September 2009, and for the 5 preceding calendar years.

     Table 1: Selected Financial Information for AUB
                              Sept-09     Dec-08      Dec-07     Dec-06     Dec-05     Dec-04
     Financial Measure
                                                 (Dollars in Thousands)
     Total Assets             110,094 118,737 104,739            65,958     27,124     10,727
     Total Loans                82,734 90,374 73,910             41,501     20,549          0
     Total Deposits           102,386 103,710 87,571             56,615     18,163      1,089
     Net Income (Loss)         (6,908) (2,183)    239               230      (636)       (84)
     Source: Uniform Bank Performance Reports (UBPR) for AUB.



Causes of Failure and Material Loss
AUB failed primarily because the Board and bank management did not effectively
oversee the bank’s operations, particularly, by failing to ensure there were adequate risk

3
  Some of AUB’s participation loans were purchased from and sold to other failed financial institutions,
including Haven Trust Bank, Alpha Bank & Trust, and Security Bank, all of which were located in the
Atlanta, Georgia area.

                                                     2
management controls over CRE and ADC lending activities. The institution grew rapidly
after opening and quickly developed CRE and ADC concentrations. As a result of
inadequate controls and declining economic and real estate market conditions, the quality
of AUB’s loan portfolio and the bank’s financial condition began to deteriorate in 2007.
The bank’s condition steadily declined until June 2009, when examiners determined it to
be critically deficient. The associated losses and provisions depleted AUB’s earnings and
capital. Ultimately, AUB’s capital position became Critically Undercapitalized, resulting
in an insolvent institution. AUB was closed due to the overall deterioration in the bank’s
financial condition, including its loan portfolio, earnings, and capital.


Board and Management Oversight

During its short existence, AUB’s Board and management failed to effectively supervise
bank operations and promote the overall welfare of the institution. According to DSC’s
Risk Management Manual of Examination Policies (Examination Manual), the quality of
bank management, including its Board and executive officers, is probably the single most
important element in the successful operation of a bank. The Board has the overall
responsibility and authority for formulating sound policies and objectives for the
institution and for effectively supervising the institution’s affairs. Executive management
has the primary responsibility of implementing the Board’s policies and objectives into
the bank’s day-to-day operations and affairs. Therefore, an interested, informed, and
vigilant Board and the selection of a competent executive management team are both
critical to the successful operation of any bank.

Given AUB’s de novo status,4 the knowledge, experience, and involvement of the bank’s
Board and executive officers were especially critical to ensure the success of AUB’s
operations. Previously, the FDIC had determined that certain problems at
newly-chartered banks during their first 6 years were attributable to various risk factors,
including weak oversight by management, inexperience and turnover in key positions,
rapid asset growth, and concentrations in CRE and ADC loans. As described below and
in other sections of this report, AUB’s management was deficient in critical duties and
responsibilities and experienced many of these previously identified risk factors.

Inexperience of AUB’s Board and Senior Management

Examiners first noted concerns regarding AUB’s proposed management during the
FDIC’s pre-opening investigation. Examiners particularly noted that none of the Board
members, with the exception of the Chief Executive Officer (CEO), had any banking

4
 De novo institutions are subject to additional supervisory oversight and regulatory controls, including the
development and maintenance of a current business plan and increased examination frequency. When
AUB received its deposit insurance in 2004, the de novo period for institutions was 3 years. However, in
August 2009, the FDIC issued Financial Institution Letter (FIL) 50-2009, entitled Enhanced Supervisory
Procedures for Newly Insured FDIC-Supervised Depository Institutions, that extended the de novo period
for newly-chartered institutions to 7 years for supervision, examinations, capital, and other requirements
and supplemented existing guidance for processing deposit insurance applications for de novo institutions
for which the FDIC is the primary federal regulator.


                                                     3
experience. Therefore, the FDIC’s Final Order for Deposit Insurance5 required AUB to
appoint at least two additional directors that had previous banking and/or bank director
experience to the Board. During the November 2005 examination,6 examiners
determined that AUB had complied with this provision of the Final Order.

Examiner concern regarding management’s lack of experience was also noted at the
bank’s first examination conducted in June 2005. Those concerns related to
(1) management’s inattention to primary responsibilities, (2) the Chief Lending Officer’s
(CLO) lack of experience in ADC lending, (3) the CEO/President’s lack of lending
experience, and (4) management’s inability to originate loans during the bank’s first
6 months of operations.

Inattention to Primary Responsibilities

At the DBF June 2005 examination and concurrent FDIC visitation, examiners noted that
executive officers, such as the President and CLO, appeared to be more involved with the
day-to-day operations of the bank than their primary areas of responsibility of making
loans and other duties. Further, during the DBF’s June 2005 examination, examiners
observed that four directors had had less than satisfactory attendance at Board meetings.
Concerns regarding poor attendance at Board meetings and other committee meetings,
such as the Asset/Liability Committee and Audit Committee, were reported at the
subsequent November 2005 and October 2006 examinations.

Key Management Turnover

The continuity of individuals hired for critical management positions became a problem
early in AUB’s existence due to significant turnover in senior level positions. Examiners
noted that finding and retaining qualified individuals had been challenging for the
institution and by 2007 AUB had employed three CLOs and two Chief Financial Officers
(CFO). Adding to the lack of continuity of AUB’s management was the removal of four
directors from the Board, termination of five senior management members during 2008,
and the retirement and resignation of two senior bank officials during 2009.

Failure to Ensure Compliance with Laws, Rules, and Regulations

AUB was cited for apparent violations of state and/or federal laws, rules, and regulations
or contraventions to interagency policy in each of the bank’s five examinations. Those
apparent violations and contraventions related, but were not limited to, inadequate


5
  The Final Order for Deposit Insurance imposed 15 conditions on AUB to comply with during its first
3 years of operation. The conditions were related, but not limited to: (1) operating within the parameters of
the bank’s business plan with notification to the FDIC of major deviations from the plan within 60 days;
(2) maintaining Tier 1 Capital at not less than 8 percent and an adequate Allowance for Loan and Lease
Losses (ALLL); and (3) obtaining annual audits of the bank’s financial statements by an independent
auditor for at least the first 3 years of operation.
6
  Unless otherwise noted in this report, references to examination and visitation dates will refer to the
month and year of the examination or visitation start dates.


                                                     4
risk management practices for purchased participation loans,7 inadequate real estate
lending standards, the lack of an election for an internal auditor, and an inadequate
methodology for the ALLL. In addition, AUB management failed to ensure that the bank
complied with Regulation O of the Federal Reserve Act, with apparent violations of
Regulation O cited at two of the bank’s five examinations.

Deviation from Its Business Plan8

Soon after AUB opened, the bank rapidly grew, with annual loan growth rates of
153 percent in 2005 and 143 percent in 2006. Although AUB’s business plan included
CRE lending, AUB quickly and substantially exceeded financial projections related to its
real estate lending activities based on actual year-end financial data, as indicated in
Table 2, and significantly increased the risk to the bank.

    Table 2: AUB’s Projected and Actual Levels for Real Estate-Related Loans
                                        Real Estate Loans             Percentage of Total Loans
          Period Ended
                                     Projected            Actual      Projected             Actual
                                       (Dollars in Thousands)                    (Percentages)
    December 2005                     $7,800            $19,663          51.32              95.69
    December 2006                     $21,000           $38,066          50.60              91.72
    December 2007                     $34,650           $71,324          51.22              96.50
    Source: OIG analysis of AUB’s business plan, examination reports, and UBPRs.

AUB’s business plan did not specifically indicate that the bank’s lending strategy would
result in concentrations in higher-risk CRE and ADC loans. On the contrary, the business
plan stated that AUB would (1) not engage in speculative lending and (2) diversify the
bank’s loan portfolio by including commercial and industrial and other consumer loans in
its portfolio. By the October 2007 examination, which was based on financial data as of
June 30, 2007, the level of CRE and speculative residential construction loans totaled
$62.1 million and represented 642 percent of the bank’s Tier 1 Capital. As indicated by
Table 2 above, the level of CRE loans as of June 30, 2007 was almost twice the level
AUB had projected for December 2007.

AUB’s noncompliance with its business plan also involved the failure to adhere to other
controls that, in part, were the basis for the FDIC’s decision to approve the bank’s




7
  Rule 80-1-5.04(1) of the Georgia DBF states that the portion of a loan which is sold by the originating
bank to another bank must conform to all laws and regulations applicable to that category of loan to the
same extent as if the purchasing bank had originated the loan itself (i.e., collateral documentation, maturity,
loan-to-value, maximum loan limits, etc.). During the June 2005 examination, examiners noted that files
for some of AUB’s purchased participations did not contain adequate loan documentation.
8
  The FDIC’s Final Order for Deposit Insurance contained a provision that required the bank to operate
within the parameters of the business plan and to notify the FDIC 60 days prior to any major deviation or
material change.


                                                      5
application for deposit insurance. For example, the business plan stated that AUB would:

                                             carefully manage its commercial loans in order to limit the risk associated
                                              with this type of lending. Instead, AUB concentrated its loan portfolio in
                                              high-risk CRE loans, which significantly increased the risk to the bank, and
                                              failed to follow adequate risk management controls to mitigate such risk.

                                             review the bank’s business plan on an annual basis and revise it as
                                              appropriate. However, AUB’s Board did not review or revise the bank’s
                                              business plan during the de novo period to address changing economic
                                              conditions and mitigate the risk to the bank.

CRE and ADC Lending Strategy, Including Participation Loans

From its inception, AUB pursued a business strategy to concentrate its loan portfolio in
CRE and ADC and to include an extensive amount of purchased participations in the
portfolio.

CRE and ADC Loan Concentrations

As shown in Figure 3, CRE and ADC accounted for $17 million, or 85 percent of the
bank’s loan portfolio as of December 31, 2005, and continued to be the focus of AUB’s
lending strategy in the ensuing years.

Composition and Growth of AUB’s Loan Portfolio

                                        $120
                                                        All Other Loans
    Gross Loans and Leases (Millions)




                                                        Other CRE Loans
                                                                                                        $90            $88
                                        $100            ADC Loans

                                                                                                       $9              $8
                                                                                        $75
                                            $80
                                                                                       $7

                                            $60                                                        $45
                                                                           $42                                        $53

                                                                                       $54
                                            $40                           $7
                                                        $20

                                                                          $26
                                            $20        $3                                              $36
                                                       $7                                                             $27
                                                       $10                             $14
                                                                          $9
                                            $0
                                                   Dec-2005         Dec-2006       Dec-2007       Dec-2008        Jun-2009
                                                                                 Period Ended


Source: UBPRs and Consolidated                                     Reports of Condition and Income (Call Report) data for AUB.




                                                                                   6
Extensive growth in AUB’s assets occurred between 2005 and 2008. During that period,
other CRE lending increased from $7 million to $45 million (peaking at $54 million
during 2007) and ADC lending increased from $10 million to $36 million. In addition,
AUB’s annual loan growth exceeded the bank’s peer group9 in 2006 and 2007. Although
growth in a bank’s loan portfolio is expected during the de novo phase, such growth
should be accomplished in a prudent manner and accompanied by adequate risk
management controls to mitigate the risk.

As AUB’s loan portfolio grew, the concentration of CRE and ADC loans to Total Capital
increased the risk to the bank and, as the quality of those loans deteriorated, AUB’s
capital levels and earnings eroded. While AUB’s Total Risk-Based Capital ratio was
slightly above its peer group in December 2006, this capital ratio progressively fell below
the bank’s peer group during 2007 and continued to decline until the bank failed. In
addition, the bank’s earnings significantly declined between December 2007 and
December 2008 with deterioration continuing throughout 2009.

The FDIC, the Office of the Comptroller of the Currency, and the Board of Governors of
the Federal Reserve System issued joint guidance in December 2006, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance).10 Although the Joint Guidance does not establish specific CRE lending
limits, it defines criteria to identify institutions potentially exposed to significant CRE
concentration risk. According to the guidance, a bank that has experienced rapid growth
in CRE lending, has notable exposure to a specific type of CRE, or is approaching or
exceeds the following supervisory criteria may be identified for further supervisory
analysis of the level and nature of its CRE concentration risk:

       Total reported loans for construction, land development, and other land (referred
        to in this report as ADC) representing 100 percent or more of Total Capital; or

       Total CRE loans representing 300 percent or more of Total Capital where the
        outstanding balance of the institution’s CRE loan portfolio has increased by
        50 percent or more during the prior 36 months.

As indicated in Table 3, AUB’s CRE and ADC concentrations exceeded the levels
outlined in the 2006 Joint Guidance that may be identified for further supervisory
analysis from 2007 through June 2009.


9
  Institutions are assigned to 1 of 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. Through 2008, AUB’s peer group
included institutions established in 2004 with assets less than $750 million. In 2009, AUB’s peer group
included all commercial banks with assets between $100 million and $300 million in a metropolitan area
with two or fewer full-service offices.
10
   On April 1, 2010, DSC issued guidance, entitled, Clarification of Calculation in Guidance on
Commercial Real Estate, to provide procedures for calculating the total CRE loan ratio specified in the
2006 Joint Guidance and referenced in the March 17, 2008 FIL entitled, Managing Commercial Real Estate
Concentrations in a Challenging Environment (FIL-22-2008).



                                                    7
In addition, AUB’s Loan Policy recognized the need to closely monitor concentrations
for adverse financial or economic conditions, stated that concentrations would be limited,
and established guidelines for concentrations based on the perceived risk. However, in
2007, AUB’s CRE level significantly increased from 359 percent of 557 percent; and in
2008, AUB began to exceed the risk limits of 600 percent and 300 percent of Total
Capital established in the bank’s Loan Policy for CRE and ADC concentrations,
respectively, and continued to exceed those limits in 2009.

   Table 3: AUB’s CRE and ADC Concentrations as a Percentage of Total Capital
                        Dec-05          Dec-06           Dec-07          Dec-08             June-09b
         CREa            195%            359%            557%             601%                885%
         ADC             114%             90%            128%             414%                569%
   Source: UBPRs for AUB.
   a
     Percentages for 2007 through June 2009 exclude owner-occupied CRE loans.
   b
     The increase in risk exposure in June 2009 was due primarily to the decline in AUB’s capital level.

The Joint Guidance states that the agencies had observed an increasing trend in the
number of institutions with concentrations in CRE loans and noted that rising CRE
concentrations could expose institutions to unanticipated earnings and capital volatility in
the event of adverse changes in the general CRE market. Indeed, AUB’s earnings were
significantly and negatively impacted as CRE and ADC risk increased amid the economic
downturn. Between December 2006 and December 2008, AUB’s net income decreased
from $230,000 to negative $2.2 million. AUB’s earnings continued to deteriorate
through September 2009, decreasing to negative $6.9 million.

Participation Loans

Further increasing AUB’s risk profile was the bank’s difficulty in originating loans and
decision to include a significant number of purchased participation loans in its loan
portfolio. Examiners first expressed concern regarding the extent of those loans and the
lack of adequate risk management controls at the June 2005 examination and noted that
an alarming level of purchased participations represented 75 percent of the bank’s loan
portfolio. Examiners recommended that AUB increase the bank’s originated loans to aid
in the long-term profitability of the institution. By the November 2005 examination,
purchased participations still represented the majority of the loan portfolio, at 51 percent.

Eventually, many of the participation loans were adversely classified. Adverse loan
classifications totaled $4 million during the October 2007 examination. The six loans
adversely classified in 2007 were primarily commercial and CRE-related loans and
included two participation loans. Adverse loan classifications increased to $33 million
during the June 2009 examination. In 2009, all but one of the classifications were CRE
loans and $7 million, or about 21 percent, were participation loans. By July 2009, AUB’s
participation loans accounted for 19 percent of the bank’s total gross loans and 19 percent
of the bank’s CRE loans.




                                                    8
Credit Risk Management Practices

AUB’s Board did not ensure that management established effective risk management
practices sufficient to limit the bank’s exposure to CRE and ADC concentrations and
purchased participations, allowing the bank to grow significantly without risk limits and
monitoring practices commensurate with the increased risk associated with AUB’s loan
portfolio.

The FDIC has recognized the need for effective risk management controls for ADC
concentrations, in particular, and CRE concentrations, in general, as indicated below.

      FIL-110-98, entitled, Internal and Regulatory Guidelines for Managing Risks
       Associated with Acquisition, Development, and Construction Lending, dated
       October 8, 1998, states that ADC lending is a highly specialized field with
       inherent risks that must be managed and controlled to ensure that the activity
       remains profitable.

      In addition, according to the Joint Guidance, strong risk management practices are
       important elements of a sound CRE lending program, particularly when an
       institution has a concentration in CRE loans.

Further, according to the Examination Manual, institutions that purchase loan
participations must make a thorough, independent evaluation of the transactions and the
risks involved before committing any funds. Institutions should also apply the same
standards of prudence, credit assessment, approval criteria, and “in-house” limits that
would be employed if the purchasing organization were originating the loan.

Nevertheless, examiners identified deficiencies in AUB’s loan underwriting and
administration at most of the bank’s examinations. Such deficiencies included, but were
not limited to:

      loan underwriting and credit administration weaknesses related to purchased
       participations, including inadequate documentation of appraisals and loans that
       exceeded the Supervisory Loan-to-Value (LTV);

      a lack of established limits for the bank’s speculative construction loans, the need
       to implement more detailed monitoring procedures for the developing ADC
       concentration, and the lack of current borrower financial statements and tax
       returns; and

      an inadequate Loan Policy as it related to establishing appropriate maximum
       percentages to Total Capital for CRE and ADC lending and addressing other risk
       management controls outlined in the Joint Guidance.

In addition, at the June 2009 examination, examiners concluded that AUB’s risk
management controls were less than satisfactory and were responsible for the bank’s high
level of adversely classified assets. Control weaknesses related to AUB’s failure to:


                                            9
        comply with its internal Loan Policy, considering the concentration in CRE
         exceeded the bank’s 600 percent policy limit;

        include global cash flow reviews, balance sheet analyses, comprehensive financial
         analyses, projected debt service coverage or debt-to-income ratios, where
         appropriate, in the bank’s underwriting process;11

        identify adequate secondary sources of repayment and limit reliance on the use of
         interest reserves and interest-only loans, which represented $20.3 million of the
         total $33 million of adversely classified items; and

        adequately underwrite and administer loan participations, which represented
         $7 million, or 21 percent, of the adversely classified items.

Allowance for Loan and Lease Losses and Adversely Classified Items

The Interagency Policy Statement on Allowance for Loan and Lease Losses
Methodologies requires an institution to maintain an appropriate ALLL level, discusses
items that need to be addressed in written policies and procedures, and describes
methodologies that institutions need to use to determine an appropriate level. In addition,
the DBF’s Approval of Articles of Incorporation for American United Bank, dated
July 12, 2004, required AUB, during the de novo period, to maintain an ALLL that
represented at least 1 percent of the bank’s outstanding loans. Although AUB complied
with this requirement, the substantial deterioration in the bank’s loan portfolio eventually
rendered the allowance inadequate.

Prior to 2007, examiners concluded that AUB did not have any adversely classified items
and the bank’s ALLL methodology and funding level were adequate. However,
beginning with the October 2007 examination, examiners began to identify and express
concerns regarding AUB’s ALLL methodology and/or funding.

        The October 2007 examination noted that AUB needed to expand its ALLL
         methodology to include Financial Accounting Standards (FAS) 5 and FAS 114
         considerations.12

        Subsequent examinations and visitations conducted in February 2009 and June
         2009 determined that AUB’s ALLL methodology still needed improvement. The
         June 2009 joint examination determined that management had failed to
         (1) correctly implement FAS 5 and FAS 114, resulting in a contravention to the

11
   FIL-22-2008, entitled, Managing Commercial Real Estate Concentrations in a Challenging
Environment, issued March 17, 2008, provides key risk management processes for institutions with CRE
concentrations, one of which is to maintain updated financial and analytical information for borrowers, and
states that global financial analyses of obligors should be emphasized.
12
   Statement of Financial Accounting Standards No. 5, Accounting for Contingencies and FAS No. 114,
Accounting by Creditors for Impairment of a Loan.


                                                    10
        Interagency Policy Statement on Allowance for Loan and Lease Losses
        Methodologies, and (2) adequately fund the ALLL.

Further, examiners reported that significant deterioration in AUB’s asset quality, initially
noted at the October 2007 examination, had become substantial, as indicated in Table 4.

 Table 4: AUB’s Adversely Classified Items and ALLL by Examination and Visitation Dates
                                           Jun-05      Nov-05     Oct-06       Oct-07       Feb-09    Jun-09

               Category                                           (Dollars in Thousands)
 Adversely Classified Items                       0          0           0          3,991    11,574    33,209
 Adversely Classified Coverage Ratio              0          0           0           39%      117%      339%
 ALLL Funding                                    40         96         328            593     2,453     2,453
 Source: Examination reports for AUB and the DBF February 2009 visitation of AUB.

As noted previously, of the loans that were adversely classified, all but one was CRE-
related. As the bank’s asset quality deteriorated and the level of adversely classified
items increased, AUB’s earnings and capital were negatively impacted. Specifically,
earnings decreased from $230,000 at December 31, 2006, to negative $6.9 million as of
September 30, 2009. The decrease in AUB’s capital is discussed later in the
Implementation of PCA section of this report.


The FDIC’s Supervision of AUB
From February 2005 until the bank failed in October 2009, the FDIC, in conjunction with
the DBF, provided ongoing supervision of AUB through five onsite risk management
examinations and four visitations. During the de novo period, examiners generally
concluded that AUB’s overall financial condition was sound and management’s
performance and oversight was satisfactory. However, the DBF’s February 2009
visitation identified significant deterioration in AUB’s financial condition, which
examiners determined had become more pronounced at the time of the joint June 2009
examination. Through their supervisory efforts, the FDIC and the DBF identified and
brought key risks to the attention of the bank’s Board and management, including the
concerns regarding AUB’s Board and management oversight, high levels of CRE and
ADC concentrations, and associated weak risk management practices.

The FDIC and the DBF initiated enforcement actions in 2009 to address risk management
deficiencies and AUB’s deteriorating financial condition. Although the FDIC and the
DBF closely monitored AUB, and the FDIC downgraded certain component ratings at the
October 2007 examination, an additional rating downgrade and supervisory actions may
have been warranted. Specifically, given the deficiencies and risks identified at the 2007
examination, it may have been prudent for the FDIC to downgrade AUB’s management
rating and/or include provisions to address management and asset quality in the
supervisory action taken at that time, in light of the bank’s level of asset concentrations.
In addition, supervisory action may have been prudent when offsite monitoring indicated


                                                  11
increasing risk at AUB after the October 2007 examination and before the DBF’s
February 2009 visitation.

With respect to issues discussed in this report, the FDIC has issued guidance that
reemphasizes managing risks associated with CRE and ADC concentrations and de novo
institutions, as well as addresses communicating and following up on identified risks and
deficiencies. The FDIC also implemented an examiner training initiative that emphasizes
the need to assess a bank’s risk profile using forward-looking supervision. The training,
among other things, addressed the need for examiners to consider management practices
as well as the bank’s financial performance or trends in assigning ratings as allowable
under existing examination guidance.

Supervisory History

The FDIC and the DBF provided ongoing supervision of AUB through risk management
examinations, onsite visitations, offsite monitoring, and supervisory actions. Table 5
summarizes key information related to AUB’s onsite examinations and visitations,
including the bank’s supervisory ratings.13

Table 5: AUB’s Supervisory History from 2005 to 2009
     Examination or                      Supervisory
     Visitation Start                      Ratings
           Date         Agency             (UFIRS)                  Supervisory or Enforcement Actions
      02/18/2005*         DBF          Not applicable         None
      06/13/2005          DBF             222312/2            None
      06/20/2005*         FDIC         Not applicable         None
      11/07/2005          FDIC            112312/2            None
      10/09/2006          DBF             112312/2            None
      10/29/2007          FDIC            222222/2            Bank Board Resolution (BBR)–Effective 02/26/2008.
      07/16/2008*         DBF          Not applicable         None
                                          433422/4            Memorandum of Understanding (MOU)–Effective
      02/17/2009*         DBF
                                    (interim downgrade)       05/14/2009.
                                                              PCA Directive–Effective 8/18/2009.
      06/29/2009          Joint            555544/5           Problem Bank Memorandum–8/28/2009.
                                                              Cease and Desist Order (C&D)–Effective 10/9/2009.
Source: Examination reports and DSC Supervisory History for AUB.
* Denotes visitations.

AUB consistently received composite “2” CAMELS ratings during its de novo period
from December 2004 through December 2007. AUB’s examination cycle changed to an

13
  Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s financial condition and operations in six components represented by the
CAMELS acronym: Capital adequacy, Asset Quality, Management practices, Earnings performance,
Liquidity position, and Sensitivity to Market Risk). Each component, and an overall composite score, is
assigned a rating of 1 through 5. A 1 indicates the highest rating, strongest performance and risk
management practices, and least degree of supervisory concern, while a 5 indicates the lowest rating,
weakest performance, inadequate risk management practices, and, therefore, the highest degree of
supervisory concern.


                                                      12
18-month period once its de novo period ended because the bank met the applicable
conditions. Accordingly, AUB’s next examination was not performed until June 2009.

The October 2007 examination concluded that the overall condition of AUB was
satisfactory and the level of classified assets was moderate. Although examiners noted
that AUB needed to improve the monitoring of the bank’s significant CRE portfolio and
the management of its information systems, they concluded that bank management was
working to address the noted deficiencies. Examiner concerns with the bank’s
management information system resulted in AUB adopting a BBR to address those
deficiencies. The BBR did not, however, address risk management deficiencies related to
(1) significant growth during the de novo period and a lack of compliance with the
business plan, (2) substantial CRE and ADC concentrations, (3) the level of adversely
classified assets, or (4) the high risk limits for CRE-related lending established in AUB’s
Loan Policy.

By February 2009, the risk management deficiencies, in conjunction with the economic
downturn, resulted in significant deterioration in the bank’s CRE and ADC
concentrations that the Board and management would not be able to rectify. The DBF’s
February 2009 visitation found substantial deterioration in AUB’s financial condition
and, based on that deterioration, downgraded all of the bank’s CAMELS ratings, except
liquidity and sensitivity to market risk. Examiners also downgraded the bank’s
composite rating to a “4”, indicating, in part:

      serious financial or managerial deficiencies that resulted in unsatisfactory
       performance;

      weaknesses and problems that were not being satisfactorily addressed or resolved
       by the Board and management;

      unacceptable risk management practices relative to the institution’s size,
       complexity, and risk profile; and

      generally unsafe and unsound practices or conditions.

As a result, the DBF and the FDIC issued an MOU, effective May 2009, which required
AUB to:

      improve management, including submitting a management plan;

      increase the bank’s capital and improve and sustain earnings;

      perform a risk segmentation analysis of the credit concentrations and establish
       and maintain an appropriate ALLL; and

      review the bank’s liquidity position and develop or revise, adopt, and implement a
       written contingency liquidity plan (CLP).



                                            13
As AUB’s financial condition continued to deteriorate, the FDIC and the DBF took
additional supervisory actions during 2009 to address AUB’s condition as indicated
below.

        Because of the continued deterioration in AUB’s financial condition identified
         during the June 2009 examination, the DBF, in consultation with the FDIC, issued
         a C&D to AUB in October 2009 that included provisions related to (1) capital,
         adversely classified items, credit concentrations, and restrictions of credit;
         (2) management, strategic planning, violations of laws and regulations and the
         ALLL; and (3) funds management, brokered deposits, and a written CLP.

        The FDIC also issued a PCA Directive in August 2009 that established an
         immediate and enforceable timeline for the bank’s recapitalization, sale, or
         merger.

        Additionally, the FDIC drafted a Problem Bank Memorandum in August 2009
         identifying the significant deterioration in the bank’s financial condition and
         recommended interim rating changes.

Unfortunately, the supervisory actions in 2009 and AUB’s efforts to address them were
too late to reverse the deterioration in the bank’s financial condition.

Supervisory Response to Board and Management Oversight

Examiner concern regarding AUB’s Board and management was first expressed in the
FDIC’s Report of Investigation,14 dated May 7, 2004. Such concern resulted in the FDIC
requiring AUB to (1) include at least one outside director with prior banking experience,
(2) appoint experienced outside director(s) to the bank’s Loan Committee, and
(3) employ an acceptable Senior Lending Officer and CFO. Similarly, the FDIC’s Final
Order for Deposit Insurance, dated June 7, 2004, also included conditions related to the
need for experienced directors and management and the FDIC’s approval.

Prior to the DBF’s February 2009 visitation, AUB’s management had consistently been
rated a “2”. Each of the visitations and examinations conducted from June 2005 through
June 2009, however, raised a number of concerns and made recommendations related to
the inexperience of Board members and senior management, turnover in key management
positions, and poor risk practices, and made recommendations to improve those
deficiencies. However, examiners did not:

        note specific deficiencies or concerns regarding the bank’s noncompliance with
         the financial projections included in the business plan,

14
  The Report of Investigation contains conclusions and recommendations that present an overview of the
application, analyzes and summarizes findings, and concludes with the investigating examiner’s
recommendation of whether the FDIC should grant federal deposit insurance to proposed financial
institutions.


                                                  14
      request that AUB update its business plan, or

      take action to ensure the bank’s loan portfolio was diversified commensurate with
       the loan mix included in the bank’s business plan.

Supervisory actions to address examiner concerns regarding AUB’s Board and
management began in 2009 after the bank’s financial condition worsened. Specifically,
during the DBF’s February 2009 visitation, examiners identified concerns regarding
AUB’s financial deterioration and asset concentration and downgraded AUB’s
management rating to a “3”. A “3” rating indicated that management and Board
performance needed improvement and that risk management practices were less than
satisfactory given the nature of the bank’s activities. In addition, examiners took
informal action in the form of an MOU that required AUB to take specific actions in
regard to the bank’s management and submit a management plan commensurate with the
need for increased oversight of the bank’s affairs, especially with regard to its lending
activities.

During the June 2009 joint examination, examiners further downgraded AUB’s
management rating to a “5”, indicating that AUB’s management was critically deficient,
and issued a C&D that included provisions to address management deficiencies.
Examiners also reminded the Board that the overall condition of the bank was a direct
reflection of the Board’s management oversight.

In retrospect, earlier and stronger supervisory attention may have been warranted to
address the bank’s longstanding management weaknesses. Specifically, the FDIC’s
October 2007 examination noted that although AUB’s Board and management
performance were acceptable, immediate attention was needed to address the bank’s
problems in obtaining and retaining qualified management and support staff. However,
the BBR agreed to by AUB in 2007 did not address these issues.

Further, it may have been prudent for the FDIC to downgrade the management
component rating and/or require the bank to develop a management plan in 2007
considering that AUB’s management exhibited many of the known risk factors for de
novo banks. Even though AUB’s overall financial condition was considered satisfactory
at the October 2007 examination, a stronger supervisory response in 2007 may have
resulted in more formal Board and management commitment to implement controls to
effectively manage the bank’s operations before the supervisory actions that were taken
in 2009.

Supervisory Response to CRE and ADC Concentrations, Including Participation
Loans

Examiners consistently identified AUB’s CRE and ADC concentrations and made
recommendations related to the associated risk and risk management practices. Risks
associated with de novo and young banks were apparent and AUB’s risk profile was
increasing based on offsite monitoring activities. Nevertheless, a supervisory action was


                                           15
not taken to address those risks, including the rapid growth in CRE and ADC
concentrations, until February 2009. That action, an MOU, was effective in May 2009.

November 2005 Examination

Examiners concluded that AUB’s asset quality was strong. To review the bank’s
compliance with its business plan, examiners compared the bank’s actual level of real
estate-related loans, as of September 2005, to AUB’s first-year projection for such loans.
The examiners determined that AUB had exceeded the first year projections by more than
$4.9 million, a variance of 53 percent. Despite this variance, examiners concluded that
AUB was operating within the bank’s original business plan.15

The examiners recommended that AUB implement additional management and policy
controls because the bank was substantially exceeding its projected loan growth, and
ADC loans were 80 percent of Tier 1 Capital—approaching the level designated as a
concentration. These controls included:

        monitoring procedures for the bank’s increasing volume of ADC loans;
         establishing limits on speculative construction loans; and implementing more
         detailed procedures to monitor speculative construction loans, including, but not
         limited to, monitoring (1) total debt obligations, (2) borrowers’ liquidity positions,
         (3) economic conditions, and (4) construction reports; and

        ensuring that real estate loans that exceeded LTV limits were adequately
         documented and reported to the Board.

October 2007 Examination

AUB’s CRE concentration began to exceed the levels described in the December 2006
Joint Guidance and the bank had adversely classified assets for the first time. AUB’s
CRE concentration continued to increase, representing over 90 percent of the bank’s total
loans and 642 percent of Tier 1 Capital. Examiners also identified $4 million of
adversely classified assets, or 39 percent, of the bank’s Tier 1 Capital and ALLL but
considered the level to be moderate.

Although the examination report concluded that concentrations were not inherently bad,
examiners noted that concentrations add a dimension of risk that management should
consider. Examiners further stressed various risk management practices to AUB that are
included in the Joint Guidance and noted that the ability to adapt to rapid fluctuations in

15
   At the time these events occurred, the FDIC had not issued guidance to examiners that defined what
would constitute a major change or deviation in a business plan. However, in August 2009, the FDIC
issued guidance to its examiners, which noted that examiner judgment is critical in determining a major
change or material deviation in the business plan. The guidance also specified selected circumstances that
would be considered a major change or deviation in a business plan. FIL-50-2009, also issued during
August 2009, advised financial institutions of the requirement for prior FDIC approval of any proposed
material changes or deviations in business plans.



                                                    16
CRE markets depends heavily on the bank’s risk management practices and capital
levels.

February 2009 Visitation

In February 2009, the DBF performed a visitation at which examiners identified
substantial deterioration in AUB’s financial condition, including a significant increase in
adversely classified assets—from 39 percent in 2007 to 117 percent of Tier 1 Capital and
ALLL. ADC loans represented 414 percent and non-owner occupied CRE loans
represented 601 percent of Total Capital, respectively, as of December 31, 2008. Based
on the results of the visitation, the DBF downgraded AUB’s CAMELS ratings and issued
an MOU, effective in May 2009, which contained various provisions, including one that
required AUB to perform a risk segmentation analysis of its credit concentrations.16

June 2009 Examination

A joint June 2009 examination determined that AUB’s loan portfolio had continued to
deteriorate, the bank’s overall financial condition had become critically deficient, and
asset quality represented a serious threat to the institution’s viability. Adversely
classified assets had risen to $33 million and all but $1.2 million of those impaired assets
were CRE loans. Consequently, examiners downgraded the bank’s capital, asset quality,
management, and earnings each to “5” and liquidity and sensitivity to market risk to a
“4”.

Further, AUB’s risk profile had significantly increased. Specifically, AUB’s total CRE
concentration, as of June 30, 2009, totaled approximately 1,200 percent of Tier 1
Leverage Capital and significantly exceeded the bank’s Loan Policy limit of 600 percent.
In addition, the bank’s level of non-owner occupied CRE, which represented more than
800 percent of Total Capital, significantly exceeded the level—300 percent—that the
Joint Guidance concluded may be identified for further supervisory analysis.

Examiners made several recommendations addressing the bank’s CRE and ADC
concentrations, including that AUB revise its Loan Policy to comply with the December
2006 Joint Guidance and implement procedures to manage CRE and ADC loans and loan
workouts. Examiners also issued a C&D, effective October 2009, which imposed strict
deadlines for the bank to review and revise its concentration strategies and policies and to
perform a risk segmentation analysis.

Participation Loans

Examiner concern regarding AUB’s purchased participation loans was noted at the June
2005 examination when the loans comprised 75 percent of the bank’s loan portfolio. At
that examination, examiners advised AUB that the majority of loans on the bank’s
balance sheet should not be participations that had been purchased from other

16
     AUB performed this analysis according to the June 2009 examination.



                                                    17
institutions. Although AUB’s total loan growth had exceeded projections by almost
$4 million at the November 2005 examination, and the bank had decreased participation
loans to 51 percent of the bank’s loan portfolio, a significant portion of the portfolio still
consisted of participation loans. As such, examiners encouraged AUB to continue
developing local loan relationships. The October 2006 and October 2007 examinations
did not specifically discuss AUB’s participation loans. During the June 2009
examination, examiners adversely classified a significant number of CRE-related
participation loans. Of the loans reviewed at that examination, $16.3 million were
participation loans, of which about $7 million were adversely classified, representing
21 percent of the $33 million in total adverse classifications.

Supervisory Response to Offsite Monitoring Findings

Throughout AUB’s existence, examiners identified significant risks at AUB through
offsite monitoring, including the bank’s rapid growth and concentrated loan portfolio.
Examiners flagged AUB for offsite review beginning in December 2005 based on the
$17 million in asset growth that occurred at the bank between December 2004 and
December 2005 and again based on $23 million in asset growth between March 2005 and
March 2006. By September 2007 and continuing through the June 2009 Call Report
period, AUB was flagged for offsite reviews based on multiple risk indicators. While the
FDIC completed the required assessments and continued close monitoring of AUB,
offsite review results did not substantially alter the supervisory strategy for AUB prior to
January 2009.

Although AUB reported no past due loans as of the second quarter of 2007, by the third
quarter of 2007, the FDIC’s offsite review noted an increased volume of nonperforming
and nonaccrual loans and provision expenses, reflecting increasing risk. By December
2007, offsite monitoring noted some deterioration in asset quality with adversely
classified assets increasing and representing 39 percent of Tier 1 Capital and the ALLL.
As indicated in Table 6, offsite monitoring conducted for the first through third quarters
of 2008 identified increased exposure in the total CRE concentration, and increasing
deterioration in the loan portfolio manifested in higher percentages for non-performing
and past due loans.

Table 6: AUB’s Offsite Monitoring Results for Select 2008 Call Report Periods
                   Offsite                                Non Performing
                  Review              CRE        ADC           Loans           Past Due Loans
Call Report      Completion           Percent of Total    Percent of Tier 1     Percent of Total
   Date             Date                  Capital        Capital Plus ALLL          Loans
03/31/2008        06/30/2008          501%       143%           26%                  3.72%
06/30/2008        10/08/2008          690%       140%           34%                  6.93%
09/30/2008        01/06/2009          737%       136%           55%                  7.00%
Source: Offsite monitoring for AUB.

AUB continued to be flagged for offsite monitoring through June 2009 with an increasing
level of risk noted at each review.




                                                 18
The FDIC’s offsite reviews identified various risks for AUB that included:

      rapid growth in ADC loans,
      high concentrations in CRE loans,
      increases in past due loans,
      increases in adversely classified loans, and
      the need for an increased ALLL.

The FDIC’s offsite review program is designed to identify emerging supervisory
concerns and potential problems so that supervisory strategies can be adjusted
appropriately. However, despite the continuing deterioration in AUB’s financial
condition identified during offsite monitoring, the findings did not result in a substantial
change in AUB’s supervisory activities. Rather, as discussed previously, specific action
to address the bank’s CRE and ADC concentrations was not taken until:

      the February 2009 visitation when the DBF downgraded the bank’s CAMELS
       ratings and issued an MOU, in conjunction with the FDIC, about 3 months later to
       address the deficiencies and develop a plan to reduce undue concentrations, and

      October 2009, when the C&D issued by the FDIC and the DBF required AUB to
       review and, if necessary, revise its written plan detailing appropriate strategies for
       managing ADC and CRE concentration levels, including a contingency plan to
       reduce or mitigate concentrations given current adverse market conditions.

Supervisory Response to Credit Risk Management Practices

Examiners expressed concern regarding AUB’s credit risk management practices during
each of the bank’s examinations except the October 2006 examination. During the June
and November 2005 examinations, examiners noted problems primarily related to loan
documentation, loan underwriting, credit administration, loans in excess of LTV limits,
and policies and procedures for managing CRE and ADC concentrations.

The October 2007 examination identified further concern regarding the bank’s credit risk
management policies and practices and noted that improvements were needed in AUB’s:

      internal loan grading system,

      planning and monitoring practices for the CRE loan portfolio,

      Loan Policy for diversifying risk, and

      loan review criteria and the maximum percentages allowed for each loan category
       to Total Capital.

Examiner concerns regarding credit risk management were further heightened during the
June 2009 examination when the deficiencies identified were considered to be significant
causes for the bank’s high level of adversely classified assets and losses. Deficiencies


                                             19
identified by examiners included AUB management’s failure to implement sufficient
credit risk management policies, procedures, practices, and controls to identify, limit, and
manage the CRE loan portfolio concentration.

Despite the repeated concerns, a supervisory action did not occur until the May 2009
MOU, which required AUB to:

      perform a risk segmentation analysis with respect to the credit concentrations;

      identify concentrations by product type, geographic distribution, underlying
       collateral or other asset groups which are considered economically related and in
       the aggregate represent a large portion of AUB’s capital;

      refer to the interagency guidance on Concentrations in Commercial Real Estate
       Lending, Sound Risk Management Practices; and

      develop a plan to reduce any segment of the portfolio which the supervisory
       authorities deemed to be an undue credit concentration in relation to AUB’s
       capital.

As with other deficiencies identified at AUB, earlier supervisory action may have been
warranted to better mitigate risk.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325, Capital Maintenance, of the FDIC’s Rules
and Regulations implements PCA requirements by establishing a framework for taking
PCA against insured state-charted nonmember banks that are not Adequately Capitalized.
Based on the supervisory actions taken with respect to AUB, we concluded that the FDIC
properly implemented applicable PCA provisions of section 38.

Although AUB’s capital ratios substantially exceeded PCA thresholds for Well
Capitalized banks during its de novo period, each subsequent year resulted in a
significant decline in the bank’s capital levels. As indicated in Table 7, AUB was still
considered to be Well Capitalized as of December 2007 and December 2008. However,
during this period, the bank’s capital ratios were substantially reduced and that decline
continued through 2009, resulting in changes in the bank’s designated capital category.




                                            20
 Table 7: AUB’s Capital Ratios Relative to PCA Thresholds for Well Capitalized
          Banks
                                                     Dec-07       Dec-08      Mar-09      Jun-09       Sept-09b
                                      PCA                            AUB’s Capital Ratios
         Capital Category           Thresholds                          Percentages
     Tier 1 Leverage Capital       5% or more         9.84         6.05    6.29      3.19                0.48
     Tier 1 Risk-Based Capital     6% or more         11.13        7.68    7.54      3.91                0.58
     Total Risk-Based Capital      10% or more        12.39        8.93    8.68      5.08                1.16
     PCA Categorya                      W              W            W       A         SU                 CUb
 Source: UBPRs for AUB.
 a
   W–Well Capitalized, U–Undercapitalized, SU–Significantly Undercapitalized, CU–Critically
 Undercapitalized
 b
   The FDIC notified AUB on September 14, 2009, that the bank was considered to be Critically
 Undercapitalized based on the Tangible Equity Capital ratio as of August 31, 2009, and informed AUB of
 the applicable restrictions based on section 38 of the FDI Act and Section 325 of the FDIC Rules and
 Regulations.

AUB submitted an application for the Troubled Asset Relief Program (TARP)17 Capital
Purchase Program for $2.9 million in capital on November 13, 2008. AUB subsequently
withdrew the application on March 12, 2009.

Significant steps taken by the FDIC and the DBF to address the bank’s capital during
2009 included the following:

         May 26, 2009. The FDIC notified AUB that the bank was Adequately
          Capitalized based on the March 31, 2009 Call Report capital ratios and, as such,
          access to brokered deposits became restricted based on section 29 of the FDI Act
          and Part 337.6 of the FDIC Rules and Regulations.

         August 7, 2009. The FDIC notified AUB that the bank was Significantly
          Undercapitalized based on the June 30, 2009 Call Report capital ratios.

         August 18, 2009. The FDIC issued a PCA Directive requiring AUB to, among
          other things, (1) submit an acceptable capital restoration plan that met the
          requirements of section 325 of the FDIC’s Rules and Regulations within 14 days;
          (2) increase its Tier 1 Leverage and Total Risk-Based Capital ratios to 8 percent
          and 10 percent, respectively, within 30 days or sell or merge the bank with
          another depository institution; and (3) comply with other restrictions related, but
          not limited, to compensation, capital distributions, and asset growth.

         September 14, 2009. The FDIC notified the bank that AUB was Critically
          Undercapitalized as of August 31, 2009.


17
  TARP was established under the Emergency Economic Stabilization Act of 2008. The Act established
the Office of Financial Stability within the Department of the Treasury. Under TARP, Treasury will
purchase up to $250 billion of preferred shares from qualifying institutions as part of the Capital Purchase
Program.


                                                     21
      October 9, 2009. The C&D issued to AUB by the DBF, in consultation with the
       FDIC, became effective requiring the bank to, among other things, submit a
       capital plan and substantially increase the bank’s Tier 1 Capital incrementally, so
       that within 60 days the level would equal or exceed 8 percent of the bank’s total
       assets, and maintain that level for the period during which the C&D was in effect.

Although the FDIC followed PCA guidance, by the time AUB’s capital levels fell below
the required thresholds necessary to implement PCA, the bank’s condition had
deteriorated to the point at which the institution could not raise additional capital. The
bank was also unable to find a suitable acquirer and, therefore, was closed on October 23,
2009.


Corporation Comments
After we issued our draft report, we met with management officials to further discuss our
results. Management provided additional information for our consideration, and we
revised our report to reflect this information, as appropriate. On May 5, 2010, the
Director, DSC, provided a written response to the draft report. That response is provided
in its entirety as Appendix 4 of this report.

In its response, DSC reiterated the OIG’s conclusions regarding the causes of AUB’s
failure. With respect to our assessment of supervision, DSC noted AUB’s significant
growth between 2006 and 2008 and stated that examiners identified key risks including
inadequate Board and management oversight, the bank’s high CRE and ADC
concentrations, and associated weak risk management practices. In addition, DSC stated
that the AUB Board entered into an MOU with the FDIC and the DBF to address
weaknesses identified at the February 2009 visitation and that the FDIC and DBF took
action through a formal C&D when AUB’s management and Board were unable to
sufficiently address the cited problems.

Regarding de novo institutions, DSC stated that the supervisory program for these banks
has been extended so that these institutions receive a full-scope examination every year
for 7 years, as opposed to 3 years. In addition, DSC stated that business plans are
receiving careful analysis prior to an institution’s opening and are being closely
monitored against approved financial projections throughout the 7-year period. Further,
DSC stated that a FIL issued in August 2009 describes the program changes for de novo
institutions and warns that changes to business plans undertaken without required prior
notice may subject institutions or their insiders to civil money penalties.




                                           22
                                                                               Appendix 1

                    Objectives, Scope, and Methodology


Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from November 2009 to April 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of the application process for AUB and
AUB’s operations from December 2004 until its failure in October 2009. Our review
also entailed an evaluation of the regulatory supervision of AUB over the same period.

To achieve the objectives, we performed the following procedures and techniques:

        Analyzed examination and visitation reports and supporting workpapers prepared
         by FDIC and DBF examiners from February 2005 through June 2009.

        Reviewed the following:

             Pertinent DSC policies and procedures and documentation for offsite
              monitoring activities performed by the FDIC.

             Bank data and correspondence maintained at DSC’s Atlanta Regional Office
              and Atlanta Field Office.

             Reports prepared by the Division of Resolutions and Receiverships and
              DSC relating to the bank’s closure and bank data.

             Audit reports prepared by AUB’s external auditors, Maulden & Jenkins, for
              the years ended 2004 through 2008.

                                             23
                                                                               Appendix 1

                    Objectives, Scope, and Methodology



             Actions that DSC implemented to comply with (1) provisions of section 29
              of the FDI Act and FDIC Rules and Regulations, Part 337, Unsafe and
              Unsound Banking Practices restricting AUB’s use of brokered deposits; and
              (2) section 38 of the FDI Act, including, but not limited to, issuing PCA
              notification letters and a PCA Directive, and restricting AUB’s growth and
              payment of dividends, when applicable, based on AUB’s capital category.

       Interviewed (1) DSC management in Washington, D.C. and the Atlanta Regional
        Office; and examiners from the DSC Atlanta Field Office, who conducted
        examinations and visitations of AUB; and (2) officials from the DBF’s Atlanta,
        Georgia office.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports,
reports of examination, and interviews of examiners to understand AUB’s management
controls pertaining to causes of failure and material loss as discussed in the body of this
report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including reports of examination, correspondence files, and
testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.



                                             24
                                                                                     Appendix 2

                                  Glossary of Terms


       Term                                              Definition
Adversely Classified   Assets subject to criticism and/or comment in an examination report.
Assets                 Adversely classified assets are allocated on the basis of risk (lowest to
                       highest) into three categories: Substandard, Doubtful, and Loss.


Allowance for Loan     The ALLL is an estimate of uncollectible amounts that is used to reduce the
and Lease Losses       book value of loans and leases to the amount that is expected to be collected.
(ALLL)                 It is established in recognition that some loans in the institution’s overall
                       loan and lease portfolio will not be repaid. Boards of directors are
                       responsible for ensuring that their institutions have controls in place to
                       consistently determine the allowance in accordance with the institutions'
                       stated policies and procedures, generally accepted accounting principles, and
                       supervisory guidance.

Bank Board             A BBR is an informal commitment adopted by a financial institution’s Board
Resolution (BBR)       of Directors (often at the request of the FDIC) directing the institution’s
                       personnel to take corrective action regarding specific noted deficiencies. A
                       BBR may also be used as a tool to strengthen and monitor the institution’s
                       progress with regard to a particular component rating or activity.


Call Report            The report filed by a bank pursuant to 12 United States Code (U.S.C.)
                       1817(a)(1), which requires each insured State nonmember bank and each
                       foreign bank having an insured branch which is not a Federal branch to make
                       to the Corporation reports of condition in a form that shall contain such
                       information as the Board of Directors may require. These reports are used to
                       calculate deposit insurance assessments and monitor the condition,
                       performance, and risk profile of individual banks and the banking industry.

Cease and Desist       A C&D is a formal enforcement action issued by a financial institution
Order (C&D)            regulator to a bank or affiliated party to stop an unsafe or unsound practice
                       or a violation of laws and regulations. A C&D may be terminated when the
                       bank’s condition has significantly improved and the action is no longer
                       needed or the bank has materially complied with its terms.

Concentration          A concentration is a significantly large volume of economically related
                       assets that an institution has advanced or committed to a certain industry,
                       person, entity, or affiliated group. These assets may, in the aggregate,
                       present a substantial risk to the safety and soundness of the institution.

Problem Bank           A problem bank memorandum documents the FDIC’s concerns with an
Memorandum             institution and the corrective action in place or to be implemented and is also
                       used to effect interim rating changes on the FDIC’s systems.



                                               25
                                                                                     Appendix 2

                                   Glossary of Terms


       Term                                                 Definition
Prompt Corrective       The purpose of PCA is to resolve the problems of insured depository
Action                  institutions at the least possible long-term cost to the Deposit Insurance
(PCA)                   Fund. Part 325, subpart B, of the FDIC Rules and Regulations, 12 Code of
                        Federal Regulations, section 325.101, et. seq., implements section 38,
                        Prompt Corrective Action, of the FDI Act, 12 United States Code section
                        1831(o), by establishing a framework for determining capital adequacy and
                        taking supervisory action against depository institutions that are in an unsafe
                        or unsound condition. The following terms are used to describe capital
                        adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                        (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                        Undercapitalized.

                        A PCA Directive is a formal enforcement action seeking corrective action or
                        compliance with the PCA statute with respect to an institution that falls
                        within any of the three undercapitalized categories.


Troubled Asset Relief   TARP was established under the Emergency Economic Stabilization Act of
Program (TARP)          2008, which established the Office of Financial Stability within the
                        Department of the Treasury. Under TARP, Treasury will purchase up to
                        $250 billion of preferred shares from qualifying institutions as part of the
                        Capital Purchase Program.

Uniform Bank            The UBPR is an individual analysis of financial institution financial data and
Performance Report      ratios that includes extensive comparisons to peer group performance. The
(UBPR)                  report is produced by the Federal Financial Institutions Examination Council
                        for the use of banking supervisors, bankers, and the general public and is
                        produced quarterly from Call Report data submitted by banks.




                                                26
                                                                  Appendix 3

                          Acronyms



ADC      Acquisition, Development, and Construction Loans

ALLL     Allowance for Loan and Lease Losses

BBR      Bank Board Resolution

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity
         to Market Risk
CEO      Chief Executive Officer

CFO      Chief Financial Officer

CLO      Chief Lending Officer
CLP      Contingency Liquidity Plan

CRE      Commercial Real Estate

DBF      Department of Banking and Finance
DIF      Deposit Insurance Fund

DSC      Division of Supervision and Consumer Protection

FAS      Financial Accounting Standard
FDI      Federal Deposit Insurance

FIL      Financial Institution Letter

LTV      Loan-to-Value
MOU      Memorandum of Understanding

OIG      Office of Inspector General

PCA      Prompt Corrective Action

TARP     Troubled Asset Relief Program

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System




                                 27
                                                                                      Appendix 4
                                    Corporation Comments



Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection

                                                                         May 5, 2010
TO:               Stephen Beard
                  Assistant Inspector General for Material Loss Reviews

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          Draft Audit Report Entitled, Material Loss Review of American United Bank,
                  Lawrenceville, Georgia (Assignment No. 2010-011)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of American
United Bank (AUB), Lawrenceville, Georgia, which failed on October 23, 2009. This
memorandum is the response of the Division of Supervision and Consumer Protection (DSC) to
the OIG’s Draft Report (Report) received on April 21, 2010.

The Report concludes AUB failed because its Board of Directors (Board) and management did
not provide effective oversight and risk management practices for its strategy centered in
commercial real estate (CRE) and acquisition, development, and construction (ADC) loans. The
lack of a diversified loan portfolio, coupled with inadequate risk management controls, made
AUB vulnerable to the downturn in the economy and real estate market in the Atlanta
metropolitan area.

The FDIC and Georgia Department of Banking and Finance (DBF) jointly and separately
conducted five examinations and four visitations from 2005 through 2009. Between 2006 and
2008, AUB experienced significant growth in CRE and ADC loan portfolios. Examiners
identified key risks including inadequate Board and management oversight; the high CRE and
ADC concentrations; and associated weak risk management practices. The AUB Board entered
into a Memorandum of Understanding with the FDIC and the DBF to address weaknesses
identified at the February 2009 visitation. FDIC and DBF took action through a formal Order to
Cease and Desist when AUB’s management and Board were unable to sufficiently address the
cited problems.

In recognition that stringent supervisory attention is necessary for de novo institutions, DSC has
extended its supervisory program so that these institutions receive a full scope examination every
year for seven years, as opposed to three years. De novo business plans are receiving careful
analysis prior to an institution’s opening and being closely monitored against approved financial
projections throughout the seven year period. A Financial Institution Letter issued in August
2009 describes the program changes for de novo institutions and warns that changes in business
plans undertaken without required prior notice may subject an institution or its insiders to civil
money penalties.

Thank you for the opportunity to review and comment on the Report.




                                                  28
